    Report No. D-2009-031            December 29, 2008




Afghanistan Security Forces Fund Phase III-Air Force Real
                Property Accountability
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ADIS                          Afghanistan Data Integration System
AFCEE                         Air Force Center for Engineering and the Environment
AMEC                          AMEC Earth and Environmental, Inc.
ANA                           Afghanistan National Army
AOR                           Area of Responsibility
ASF                           Afghanistan Security Forces
CSTC-A                        Combined Security Transition Command-Afghanistan
FAR                           Federal Acquisition Regulation
FARP                          Forward Arming and Refueling Point
GAO                           Government Accountability Office
IG                            Inspector General
KAIA                          Kabul International Airport
KAF                           Kandahar Air Field
UFC                           Unified Facilities Criteria
USCENTCOM                     U.S. Central Command
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704




                                                                               December 29, 2008


MEMORANDUM FOR COMMANDER, COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN

SUBJECT: RepOit on Afghanistan Security Forces Fund Phase III-Air Force Real Property
         Accountability (Report No. D-2009-031)


We are providing this report for your information and use. We considered management comments
on a draft of the report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-8863 (DSN 664-8863). If you desire, we will provide a formal briefing on the results.




                                         L n4u:w!~t1~
                                        fDirector
                                           Joint and Overseas Operations
                    Report No. D-2009-031 (Project No. D2007-D000LQ-0161.003)
                                        December 29, 2008

               Results in Brief: Afghanistan Security Forces
               Fund Phase III-Air Force Real Property
               Accountability
                                                        ANA. Transfer of property management to the
What We Did                                             ANA includes responsibility for both the
We determined whether the Air Force Center              operation and maintenance of facilities and for
for Engineering and the Environment (AFCEE)             monitoring the real property management
and the Combined Security Transition                    system CSTC-A uses to manage real property
Command-Afghanistan (CSTC-A) could                      on behalf of the ANA.
account for real property construction purchased
to support the Afghanistan National Army
(ANA). AFCEE provided contracting services              Client Comments and Our
to CSTC-A, who used Afghanistan Security                Response
Forces (ASF) funding to construct a variety of          U.S. Central Command responded for CSTC-A.
buildings such as office buildings, barracks,           U.S. Central Command concurred with the
airport taxiways and hangars, and various other         recommendations and no further comments are
facilities. We also determined whether                  required.
CSTC-A properly transferred the real property
to the ANA after the construction was complete.

What We Found
We validated the accountability of ASF funded
real property construction as listed on contracts
awarded by AFCEE at the direction of CSTC-A.
We determined that AFCEE and CSTC-A
maintained sufficient documentation and
records to track accountability of real property
constructed to support the ANA. However,
CSTC-A did not have a formal process in place
to transfer real property to the ANA.

What We Recommend                                       Audit Team Examines Construction of ANA
We recommend that the Commander, CSTC-A                      Airport Office Building at Kabul
develop and implement standard operating
procedures for the transfer of real property to
the ANA. The standard operating procedures
should include procedures for preparing formal
asset transfer letters and when applicable,
documenting the ANA refusals to sign for
completed real property. In addition, we
recommend that the Commander, CSTC-A
develop and implement guidance covering the
transfer of real property management to the

                                                    i
              Report No. D-2009-031 (Project No. D2007-D000LQ-0161.003)
                                  December 29, 2008

Recommendations Table
Client                           Recommendations           No Additional Comments
                                 Requiring Comment         Required
Commander, Combined Security                               B.1., B.2.
Transition Command-Afghanistan




                                         ii
Table of Contents

Results in Brief                                             i

Introduction                                                1

       Objectives                                           1
       Review of Internal Controls                          1
       Background                                           1


Finding A. Real Property Accountability                     3

Finding B. Property Transfer to Afghanistan National Army   13

       Recommendations                                      16

Appendices

       A. Scope and Methodology                             19
             Prior Coverage                                 20
       B. Administrative Fees                               21

Client Comments

       U.S. Central Command                                 23
Introduction
Objectives
Our objectives were to determine whether organizations in Southwest Asia that the
U.S. Central Command (USCENTCOM) assigned with the responsibility for managing
the Afghanistan Security Forces (ASF) Fund properly accounted for the goods and
services purchased using the ASF Fund and whether the goods and services purchased
were properly delivered to the ASF. See Appendix A for a discussion of the scope and
methodology.

Review of Internal Controls
We identified material internal control weaknesses for CSTC-A as defined by DoD
Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006,
as they applied to the audit objective. DoD Instruction 5010.40 states that internal
controls are the organization policies and procedures that help program and financial
managers achieve results and safeguard the integrity of their programs. CSTC-A did not
have a formal process in place to transfer real property to the ANA. Implementing our
recommendations will improve the internal controls over property transfer by providing
an official document that transfers real property to the ANA. We will provide a copy of
the report to the senior CSTC-A official responsible for internal controls.

Background
This report is one in a series of reports of a three-phase audit of the ASF Fund. In total,
about $15.3 billion has been appropriated to the ASF Fund through six Public Laws:
109-13, 109-234, 109-289, 110-28, 110-161, and 110-252. For this report, we reviewed
AFCEE construction projects that were supported through three of the five Public Laws
(109-13, 109-234, and 109-289) that appropriated about $4.7 billion to the ASF Fund.

In the first phase, we determined that the Under Secretary of Defense (Comptroller)/
Chief Financial Officer and the Office of the Assistant Secretary of the Army for
Financial Management and Comptroller distributed $4.7 billion of budget authority
appropriated by Public Laws 109-13, 109-234, and 109-289 for the ASF Fund in
compliance with provisions of the three Public Laws and applicable appropriation law.

The second phase of the audit will determine whether recorded obligations using the ASF
Fund were made legally under the applicable appropriation laws. The second phase is
being conducted concurrently with the third phase. We will issue a separate report for the
second phase.

This report is the first report in a series of reports for the third phase of the audit. For
phase three, we plan to issue multiple reports that will address accountability of real
property construction, weapons, vehicles, and communication equipment provided to
support the ASF, as well as the related planning and requirements. This report addresses
real property construction services awarded by AFCEE at the direction of the Combined


                                             1
Security Transition Command-Afghanistan (CSTC-A) in support of the Afghanistan
National Army (ANA).


Afghanistan Security Forces Fund
Public Laws 109-13, 109-234, and 109-289 appropriated funds for the ASF Fund for “the
security forces of Afghanistan including the provision of equipment, supplies, services,
training, facility, and infrastructure repair, renovation, and construction.” This report
focuses on the construction portion of the ASF Fund appropriation.


Roles and Responsibilities
USCENTCOM is working to promote development and cooperation among nations to
establish security and stability in its Area of Responsibility (AOR). Afghanistan is one of
the countries within the USCENTCOM AOR. USCENTCOM, through its subordinate
command, CSTC-A, is working with the Government of Afghanistan to build up the
ASF, which includes the ANA. According to CSTC-A Operations Order No. 08-006,
dated January 14, 2008, the CSTC-A mission is to plan, program, and implement force
generation that establishes an enduring capability within the ASF that is self-sustaining.
Further, the Operations Order states:

               The commander’s intent is to provide quality facilities that fulfill the
               billeting, sustainment, force protection, training and operational needs
               of the supported Afghan National Security Forces units and missions.
               Per established and approved facility priorities and to support the
               commander’s intent, facilities should be designed, programmed and
               built to be ready for occupancy prior to the fielding of new units. If
               construction timelines for an entire project (ex. Garrison) will not
               support completion prior to fielding of designated units, the
               acquisition/construction strategy shall be shaped to prioritize work. The
               priority for completion of work is force protection and billeting (to
               include required power, water, waste water treatment, DFAC [Dining
               Facility]) first, followed by administrative, headquarters and support
               facilities, and finally by quality of life enhancements and MWR
               [Morale, Welfare, and Recreation] items.

AFCEE performs construction contracting services on behalf of CSTC-A. A
memorandum of agreement, dated August 8, 2006, between AFCEE and CSTC-A,
established “a mutual business framework for the provision of AFCEE assistance to
CSTC-A.” The memorandum delineates the services and the costs of those services that
AFCEE will provide to CSTC-A, including contracting for real property construction and
quality assurance services. In accordance with the memorandum of agreement, AFCEE
established an in-country contracting officer’s representative and provided contract
administration and technical support. AFCEE charges CSTC-A a 3.32 percent fee for
contract administration. See Appendix B for a discussion of the administrative fees
charged for the management of real property construction.




                                                  2
Finding A. Real Property Accountability
AFCEE and CSTC-A maintained documentation to provide accountability for 10 real
property construction projects built in support of the ANA. We verified that those 10 real
property projects existed, were being constructed in the proper location, and were being
built in support of the ANA.

Accountability
DoD Instruction 5000.64, “Accountability and Management of DoD-Owned Equipment
and Other Accountable Property,” November 2, 2006, defines accountability as follows:

       The obligation imposed by law, lawful order, or regulation, accepted by an organization
       or person for keeping accurate records, to ensure control of property, documents or funds,
       with or without physical possession. The obligation, in this context, refers to the fiduciary
       duties, responsibilities, and obligations necessary for protecting the public interest;
       however, it does not necessarily impose personal liability upon an organization or person.

AFCEE and CSTC-A maintained sufficient documentation to account for real property
construction in support of the ANA. The real property construction was valued at about
$253.4 million. This amount represented all real property construction projects awarded
by AFCEE as of February 2008, and funded from Public Laws 109-13, 109-234, and
109-289. Table 1 shows the task orders for the 10 real property construction projects.

    Table 1. AFCEE Awarded Real Property Construction Contracts for ANA
    Contract No.           Task         Estimated Cost        Fixed Fee        Total Costs       Location
                           Order
 FA8903-06-D-8507          0005             $36,807,588       $2,576,531        $39,384,118       Kabul
 FA8903-06-D-8507          0006              23,433,425        1,640,328         25,073,753       Kabul
 FA8903-06-D-8507          0009               1,450,970          101,568          1,552,538     Darulaman
 FA8903-06-D-8513          0002              29,878,750        2,360,421         32,239,172       Kabul
 FA8903-06-D-8513          0010              35,052,830        2,628,962         37,681,792       Kabul
 FA8903-06-D-8520          0002              19,779,030        1,581,905         21,360,935       Kabul
 FA8903-06-D-8520          0008              27,598,633        2,069,898         29,668,531       Kabul
 FA8903-06-D-8519          0012              21,600,479        1,099,464         22,699,943     Kandahar
 FA8903-06-D-8511          0018              39,725,048        2,795,044         42,520,092     Shindand
 FA8903-04-D-8672          0040               1,121,292           78,490         $1,199,782     Shindand
       Total                               $236,448,045      $16,932,611       $253,380,656



During our site visit to AFCEE in January 2008, AFCEE provided us with a map of
Afghanistan with real property construction sites labeled. Figure 1 is the map of the
location of those real property construction sites.




                                                    3
4
AFCEE awarded all 10 construction projects as cost-plus-fixed-fee task orders.
According to Federal Acquisition Regulation (FAR) Subpart 16.3, “Cost-Reimbursement
Contracts:”

              Subpart 16.301-1 Description. Cost-reimbursement types of contracts
              provide for payment of allowable incurred costs, to the extent
              prescribed in the contract. These contracts establish an estimate of total
              cost for the purpose of obligating funds and establishing a ceiling that
              the contractor may not exceed (except at its own risk) without the
              approval of the contracting officer.

                       *        *        *        *         *        *        *

              Subpart 16.306 Cost-plus-fixed-fee contracts. (a) Description. A cost-
              plus-fixed-fee contract is a cost reimbursement contract that provides
              for payment to the contractor of a negotiated fee that is fixed at the
              inception of the contract. The fixed fee does not vary with actual cost,
              but may be adjusted as a result of changes in the work to be performed
              under the contract. This contract type permits contracting for efforts
              that might otherwise present too great a risk to contractors, but it
              provides the contractor only a minimum incentive to control costs.

AFCEE Accountability
AFCEE used a Conceptual Work Plan/Implementation Work Plan to manage real
property construction. AFCEE described this process as follows:

              Upon notice to proceed (NTP), the contractor initiates the requirement
              to submit the Conceptual Work Plan (CWP). As a part of the CWP, the
              contractor initiates planning activities, site preparation, and
              subcontracting actions. The CWP is a conceptualization of how the
              work will be accomplished. It includes simple diagrams, schedules.
              [sic] Preliminary [Level 1] schedules are appropriate in the Draft CWP
              development. Approval of the completed CWP enables the contractor
              to initiate construction and transition into the Implementation Work
              Plan (IWP). Once CJ-ENG [Combined Joint-Engineering] and the
              AFCEE Afghanistan Project Manager (PM) approve the CWP, the
              contractor may begin work under the IWP process. The IWP is a living
              document that can be modified and updated as needed to reflect
              approved changes in project completion requirements. Resource
              Loaded [Level 4] schedules are appropriate and required in the final
              approved CWP and any version of the IWP. The CWP and IWP shall
              include a summary roll-up of subcontractor cost estimates. The IWP
              process includes the initial construction efforts and allows an iterative
              process of maintaining, updating, and executing the IWP.

AFCEE provided documentation that included contracts, contract modifications,
conceptual work plan/implementation work plan submittals, and independent quality
assurance report submittals. Based upon our review of these documents, we concluded
that AFCEE maintains sufficient documentation to account for real property.




                                                  5
Quality Assurance
AFCEE used its Worldwide Planning, Program, and Design contract for quality
assurance of real property construction. According to AFCEE, the Worldwide Planning,
Program, and Design contractor performs both quality assurance and construction
surveillance, which includes reviews of the overall quality, cost, and schedule of the real
property delivered by the construction contractor. Versar, Inc. was awarded contract
F41624-03-D-8620, task order 0063 to perform supervision, inspection, and oversight of
the 10 construction projects in Afghanistan.

Versar International Assistance Projects, a subsidiary of Versar, Inc., performed
independent quality assurance for the AFCEE projects we reviewed. Versar International
Assistance Projects submitted a daily report for each of the AFCEE projects, which
included an analysis of each project, information on percentage of completion, photos of
the construction site, information on contractor submittals, and a discrepancy and
noncompliance log that tracked the contractor’s compliance with provisions of the
contract.

CSTC-A Accountability
CSTC-A relied on the Afghanistan Data Integration System (ADIS) 1 to track
accountability of real property construction on behalf of the ASF. ADIS is a real
property database management system that is used to track ongoing and completed real
property construction executed by AFCEE and the U.S. Army Corps of Engineers,
Afghanistan Engineering District. From ADIS, we extracted a report that contained
records for CSTC-A to track real property construction. The report included a CSTC-A
project number, a contract number, a project name, a project description, the obligation
amount, and the location of each construction project. The ADIS system contained
records of all 10 projects. Therefore, we concluded that CSTC-A maintains proper
records to track accountability of real property construction in support of the ANA.

Existence
As part of determining whether AFCEE properly accounted for real property
construction, we traced documentation for real property and verified that the contracted
real property construction physically existed, was in the correct location, and was being
built in support of the ANA. We verified the existence of the 10 real property
construction projects awarded by AFCEE at the direction of the CSTC-A in support of
the ANA. Information on each of the ten construction projects is listed below.

Kabul Military Training Center
AFCEE awarded AMEC Earth and Environmental, Inc. (AMEC), contract
FA8903-06-D-8507, task order 0005, valued at $39.4 million, to plan and construct, in
Kabul, four 600-person student barracks, two administrative buildings, a




1
    ADIS records are maintained by CSTC-A, Combined Joint-Engineering.


                                                   6
4,400 square-meter dining facility, a multipurpose gymnasium, and four K-Spans 2 to
house 1,000 troops, among other requirements.

In addition, AFCEE awarded AMEC contract FA8903-06-D-8507, task order 0006,
valued at $25.1 million, to plan and construct additional facilities at Kabul Military
Training Center, including four 600-person student barracks, two student battalion
administrative buildings, six classroom/troop support buildings, a 2,800 square-meter
Military Police compound/garrison, a 3,800 square-meter dry storage facility, an upgrade
to the water treatment plant to sustain an additional 4,000 personnel, and an upgrade to
the wastewater collection system, among other requirements.

On February 26, 2008, we visited the Kabul Military Training Center site in Kabul.
Using the contract requirements as a guide, we observed that the ongoing construction
generally matched the stated contract scope of work at that time. For example, we
observed the building of a dining facility and classrooms at Kabul Military Training
Center. In addition, a civil engineer that was part of our team concluded that the
construction at the Kabul Military Training Center was built according to its intended
purpose. Figure 2 shows classrooms and a dining facility at Kabul Military Training
Center under construction.




Figure 2. Classrooms (left) and Dining Facility (right) under construction at Kabul
                             Military Training Center


Darulaman K-Span
AFCEE awarded AMEC contract FA8903-06-D-8507, task order 0009, valued at
$1.6 million, to construct K-Spans at the National Military Academy of Afghanistan. The
buildings were subsequently moved to Camp Julian, Darulaman, by contract
modification.

On March 1, 2008, we visited the real property construction site of K-Spans at
Darulaman. The contract, after two modifications, contained provisions for the
construction of 2 tan-colored K-Spans, to be constructed in Darulaman. We visited
Camp Julian, Darulaman, and observed the construction of the K-Spans. In addition, a
2
    K-Span is high quality prepainted galvanized steel roofing.


                                                       7
civil engineer that was part of our team concluded that the K-Spans were being built
according to their intended purpose. Figure 3 shows K-Spans at Darulaman.




                                   Figure 3. K-Spans at Darulaman


Kabul International Airport
On February 27, 2008, we visited the following real property construction contracts sites
at Kabul International Airport (KAIA) to physically verify the existence of :

       x   the northside cantonment area, 3
       x   the National Maintenance Facility Aviation Component Complex, and
       x   the taxiway expansion.


Northside Cantonment Area
AFCEE awarded Innovative Technical Solutions, Inc., contract FA-8903-06-D-8513, task
order 0002, valued at $32.2 million, to plan and construct an ANA Air Corps northside
cantonment area for 1,920 personnel, a water treatment plant, a power plant, a
communication infrastructure, a billeting and dining facility, an Air Squadron
headquarters building, a wing headquarters, and an operation and mission support
headquarters building, among other requirements.

In addition, AFCEE awarded Innovative Technical Solutions, Inc., contract FA-8903-06-
D-8513, task order 0010, valued at $37.7 million, which refined the northside cantonment
area billet requirement to 1,800 individuals, added vehicle support facilities, a central
laundry, a gymnasium, a museum, a fuel point, and a warehouse, among other
requirements. Figure 4 shows an office building and barracks at the northside
cantonment area.




3
    A cantonment area is where troops reside.


                                                 8
 Figure 4. Northside Cantonment Area Office Building (left) and Barracks (right)


National Maintenance Facility Aviation Component Complex and
Taxiway Expansion
AFCEE awarded URS Group, Inc., contract FA-8903-06-D-8520, task order 0002,
valued at $21.4 million, to plan and construct an aircraft hangar, an Air Corps hangar
facility, an Air Corps tarmac/ramp, a headquarters office facility, a machine shop, and a
propulsion repair facility, among other requirements.

In addition, AFCEE awarded URS Group, Inc., contract FA-8903-06-D-8520, task
order 0008, valued at $29.7 million, to plan and construct an expansion to the existing
taxiway and parking apron, construction of tie-ins to the flight line, and airfield lighting
systems, among other requirements. As part of the construction of the taxiway
expansion, a $10.7 million modification was issued (included in the $29.7 million) to
upgrade the electrical system of the taxiway at KAIA. Figure 5 shows the KAIA hangar
and taxiway.




                  Figure 5. KAIA Hangar (left) and Taxiway (right)

We observed that the real property under construction at KAIA generally met the scope
of work of the contract awards. We verified the existence of multiple office buildings
and barracks at the northside cantonment in KAIA. Further, we toured the National
Maintenance Facility Aviation Component Complex and walked on the taxiway at KAIA.


                                              9
In addition, a civil engineer that was part of our team concluded that the construction at
KAIA was built according to its intended purpose.

Kandahar Air Field
AFCEE awarded Toltest, Inc., contract FA8903-06-D-8519, task order 0012, valued at
$22.7 million, to plan and construct a 400-person cantonment area, a dining facility for
400 people, a fire station, a sports field, an administration and headquarters office space,
and a motor pool, among other requirements. Initially, CSTC-A decided to locate the
cantonment facility at an ANA brigade garrison about 2 miles from Kandahar Air Field
(KAF) and construct the administration and headquarters office space at KAF. This
decision was subsequently changed as projected security costs of constructing in two
locations increased by about $4 million, and therefore CSTC-A moved the entire
construction project back to KAF. As a result of moving the project to KAF, the existing
Forward Arming and Refueling Point (FARP) had to be moved to accommodate the
cantonment area and the administration and headquarters office space. AFCEE issued a
modification to relocate the FARP, and as a result, some requirements were removed
from the scope of the original contract award so that funds were available for the FARP
relocation. In total, AFCEE obligated about $2 million for the FARP relocation, an
additional $1.5 million was obligated on additional planning, and security costs increased
by about $.5 million as a result of changing project locations. In total, AFCEE removed
about $4 million of construction work from the contract because of the relocation.

Our team visited KAF on March 2, 2008, and observed the construction of the
cantonment facility and the relocated FARP. First, we visited the construction of the
cantonment facility. We found that the cantonment area was being constructed just
outside KAF. Construction was in the beginning stages. Next, we visited the relocated
FARP and observed the construction there was close to completion. The civil engineer
that accompanied our team concluded that the construction was built according to its
intended purpose. Figure 6 shows the cantonment area and the FARP at KAF.




    Figure 6. ANA Air Corps FARP (left) and Cantonment Area (right) at KAF




                                             10
Shindand
AFCEE awarded two task orders for construction at Shindand to the Environmental
Chemical Corporation. One task order was for Unexploded Ordnance Site Survey and
one was for the ANA Air Corps Regional Expansion.

AFCEE awarded the Environmental Chemical Corporation contract FA-8903-04-D-8672,
task order 0040, valued at $1.2 million, which included site survey and unexploded
ordnance clearance. AFCEE also awarded Environmental Chemical Corporation contract
FA-8903-06-D-8511, task order 0018, valued at $42.5 million, to plan and construct the
ANA Air Corps Regional Expansion at Shindand. According to a contractor prepared
plan, which incorporated the views of the major stakeholders such as CSTC-A and
AFCEE, the initial plan for the ANA Air Corps Regional Expansion at Shindand was to
build an “Air Corps Military Training Center. . . to educate and train mechanics, air
controllers, and other aviation-specific specialties. . . .” Later, as a result of the
contractor being $12 million over budget and a significant change in the mission of the
ANA Air Corps, CSTC-A changed the task order requirements and AFCEE issued a no-
cost modification that removed the training component from the task order. Additionally,
the size of the cantonment billet was reduced from 1,500 persons to 1,325 persons and a
communication building was added as a requirement. Even with the reduced
requirement, the estimated value of the contract remained at $42.5 million.

On May 4, 2008, we visited the ANA Air Corps Regional Expansion at Shindand and
observed the construction of the dining facility and the renovation of the Operation
Group Headquarters. Figure 7 shows the dining facility and the Operation Group
Headquarters building at the ANA Air Corps Regional Expansion at Shindand.




     Figure 7. Dining Facility (left) and Operation Group Headquarters (right)



Conclusion
AFCEE and the CSTC-A could properly account for real property construction purchased
to support the ANA. Three Public Laws (109-13, 109-234, and 109-289) that
appropriated about $4.7 billion provided the funds for the following constructions


                                          11
projects built in support of the ASF: Kabul Military Training Center (Phases I and II),
Darulaman K-Spans, Kabul International Airport (the two phased construction at the
Northside cantonment area, National Maintenance Facility Aviation Component
Complex, Taxiway expansion), Kandahar Air Field (various facilities), and Shindand
ANA Air Corps Regional Expansion, including UXO site survey.

We verified that all of the 10 real property construction projects existed, are being
constructed in the proper location, and are being built in support of the ANA.




                                             12
Finding B. Property Transfer to ANA
CSTC-A lacked a formal process to transfer possession of buildings built using ASF
funds from CSTC-A to the ANA. Instead, CSTC-A relied on the DD Form 1354 for
property transfer of real property, a form normally used for the transfer of real property
between Services, commands, and installations. There appears to be no mandated formal
process for transferring real property to Afghanistan. There are also no DoD mandated
procedures. Transfer procedures that were in use at the time of the audit only addressed
the transfer of real property from the construction contractor to CSTC-A. Therefore, no
specific dates exist or are planned for the ANA to take the responsibility for the
operations and maintenance of the buildings being built for their use. The ANA may use
completed facilities with CSTC-A funding the operations and maintenance of the
buildings for years to come. CSTC-A’s lack of planning for the transfer of real property
to the ANA stands in direct violation of the CSTC-A mission to establish a self-
sustaining enduring security capability in Afghanistan.


CSTC-A Property Transfer
Of the 10 AFCEE real property construction projects we reviewed, none were completed
as of March 2008; therefore, we focused our efforts more broadly on the real property
transfer process.


Property Transfer
The CSTC-A, Combined Joint-Engineering (CJ-ENG) managed the real property
construction. However, CJ-ENG group did not have formal standard operating
procedures for property transfer of completed real property to the ANA. We found no
legal level guidance for CSTC-A to use as a basis for property transfer. When real
property construction was completed, CJ-ENG used DD Form 1354 to transfer
responsibility of real property construction to CSTC-A and thus released the contractor
from further responsibility.


DD Form 1354
The DoD, Unified Facilities Criteria (UFC) No. 1-300-08, dated June 30, 2004,
“establishes a process to transfer and accept real property accountability and costs for
capital improvements projects in a timely and consistent manner throughout the
Department of Defense (DoD) and Military Services.” UFC No. 1-300-08 is a reference
that, among other purposes, “provides the many uses of the DD Form 1354 and describes
how to use it as part of a real property inventory system.”




                                            13
According to the UFC No. 1-300-08, a DD Form 1354 is applicable in transferring real
property accountability, including in the following situations:

   x   transferring accountability for new construction and capitalization projects from
       the construction agent to the installation real property accountable officer;

   x   reassigning accountability of real property between Services, commands, and
       installations; and

   x   documenting real estate transactions, such as purchases, sales, leases, licenses,
       and permits.

The DD Form 1354 is an appropriate document for transferring real property
accountability from AFCEE to CSTC-A (reassigning accountability within DoD).
According to the UFC guidance, construction outside of the United States is governed by
Status of Forces Agreements, Host Nation Funded Construction Agreements, and in some
cases, Bilateral Infrastructure Agreements. CSTC-A was unable to provide any
agreements with respect to transfer of real property between the United States and the
Islamic Republic of Afghanistan. CSTC-A relied on the DD Form 1354 for property
transfer of real property, but the DD Form 1354 is not sufficient for property transfer of
real property outside the Federal Government.

When a DD Form 1354 is used to transfer real property between Services, the Service
Secretaries are required to sign the form. Status of Forces Agreements, Host Nation
Funded Construction Agreements, and Bilateral Infrastructure Agreements are signed at
the executive level by U.S. government representatives. Any transfer of responsibility
for the operation and maintenance of buildings between CSTC-A and the ANA should
involve formal agreements between the two parties. Indeed, for DoD to continue to pay
for the operation and maintenance of buildings when ownership may be in doubt could
suggest that the buildings are in fact being used by DoD in direct contradiction of the
purpose for which ASF funds were appropriated. In the absence of legal guidance for
specific turnover procedures regarding Afghanistan reconstruction, CSTC-A needs to
develop appropriate guidance and implement effective procedures.

As part of this audit, we reviewed the AFCEE property transfer procedures for real
property construction in Iraq. The AFCEE-Iraq procedures included an asset transfer
letter, in English and Arabic, between the Governments of the United States and Iraq,
which could serve as a model for real property transfer in Afghanistan. CSTC-A is
receptive to implementing some of the AFCEE-Iraq procedures for real property transfer
in Afghanistan, including an asset transfer letter between the United States Government
and the Afghanistan Ministry of Defense and implementing procedures that document
ANA refusals to sign for real property.

Transfer Procedures
In response to initial meetings between CJ-ENG and DoD auditors, CJ-ENG developed a
set of standard operating procedures for the turnover of real property. According to the


                                            14
CJ-ENG ANA construction building turnover process, a DD Form 1354, “will be used to
properly document completion of facilities on all ANA infrastructure projects.” The
CJ-ENG property transfer procedures noted that only U.S. Government representatives
should sign the DD Form 1354 because “the document is providing accountability for
property contracted for using U.S. government funding.”

The CJ-ENG property transfer procedures address the ANA participation, as CJ-ENG
will now communicate actual building turnover to a facility engineer from the ANA. The
procedures stated that the ANA does not need to sign the DD Form 1354, but that, “it
may be done as a courtesy and is a useful tool to capture lessons learned or outstanding
requirements that may have been missed during the construction process.”

The CJ-ENG property transfer procedures briefly discuss the turnover of operations and
maintenance responsibilities by noting that in the future CJ-ENG will strive to turn over
the operation and maintenance function to the ANA. However, as of September 2008,
CSTC-A continues to fund operation and maintenance on ANA real property through the
National Operation and Maintenance contract 4 even though construction companies
contracted to construct buildings have completed their work. The property transfer
procedures do not specifically address the long-term plan for the eventual turnover of the
funding of operation and maintenance responsibilities to the ANA. A CJ-ENG official
stated that complete turnover of operation and maintenance will occur when the
Afghanistan Ministry of Defense improves its capability to manage and maintain real
property.

In addition, the property transfer procedures do not mention the turnover of responsibility
of the ADIS real property management system to the ANA. According to CJ-ENG, the
ANA does not have the infrastructure in place to manage a real property system, and
CJ-ENG is managing this system on behalf of the ANA. Any plan to transfer real
property to the ANA should include a process outlining how the ANA will take
responsibility for real property operation and maintenance and the ADIS real property
management system. A formal plan for real property turnover to the ANA would clearly
demonstrate CSTC-A willingness to transfer more responsibility for the security of
Afghanistan to the ANA and reduce the ANA reliance on the United States.

Subsequent to the CJ-ENG development of the standard operating procedures for
building transfer, CJ-ENG noted that they began more actively engaging the Afghans in
signing for real property. However, in multiple instances the local ANA representative at
the construction location refused to sign the property transfer form. CJ-ENG provided a
few reasons for the refusal to sign, including that the local ANA representative simply
refused to sign, could not read the form and would not take acceptance of the real
property, and would not sign the form unless the contractor performed additional work
outside the scope of the contract. Formal standard operating procedures should address


4
  Following completion of real property construction, operation and maintenance of completed ANA
facilities are handled through a single contract, executed by the Army Corps of Engineers, Afghanistan
Engineering District.


                                                   15
circumstances such as the refusal of ANA representatives to sign for the transfer of real
property.

Conclusion
CSTC-A did not have standard operating procedures covering the transfer of real property from
the U.S. Government to Afghanistan, including a real property asset transfer letter and
procedures to address the ANA’s refusal to sign for real property. In addition, CSTC-A did not
have guidance for the eventual turnover of operation and maintenance functions and the ADIS
real property system to the ANA.

The only means to clearly determine whether ASF funded construction projects were
properly delivered to the ASF will be to examine documents that clearly transfer the
buildings including operational and maintenance costs on a specific date. Today, those
agreements do not exist and there is no guidance to mandate that those agreements be
prepared. CSTC-A has oversight of the construction contracts and knows when
construction is complete and when the buildings are ready for use by the ASF. However,
in some cases, it is not clear that the ANA is willing or able to operate and maintain the
buildings that are being constructed on their behalf. If the ANA is unable to operate and
maintain the buildings, CSTC-A has failed in its mission to establish a self-sustaining
enduring security capability in Afghanistan and ASF funds have not been efficiently
used.

Recommendations, Client Comments, and Our
Response
Recommendations
B. We recommend that the Commander, Combined Security Transition Command-
   Afghanistan, develop and implement:

           1. Standard operating procedures covering the transfer of real property
              from the U.S. Government to the Islamic Republic of Afghanistan.
              This includes the development of a formal real property asset transfer
              letter and procedures to address the refusal of the Afghanistan
              National Army personnel to sign for completed real property.

           2. Guidance covering the turnover of real property management to the
              Afghanistan National Army. This includes transfer of the
              responsibility and formal obligation for the operation and
              maintenance of facilities and the Afghanistan Data Integration System
              or similar system.

Client Comments
The Director of Logistics, U.S. Central Command, responded on behalf of the Combined
Security Transition Command-Afghanistan. The Director of Logistics, U.S. Central
Command, concurred with the recommendations.




                                            16
Our Response
We consider the U.S. Central Command comments responsive.




                                       17
Appendix A. Scope and Methodology
We conducted this performance audit in Afghanistan and the United States from
December 2007 through May 2008, in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed Public Laws 109-13, 109-234, and 109-289 that appropriated about
$4.7 billion in support of the ASF, and verified that the real property constructed using
these funds was actually built in support of the ANA, as directed by the Public Laws. We
reviewed DoD Instructions and guidance from the Unified Facilities Criteria (UFC)
No. 1-300-08 related to the DD Form 1354. We reviewed CSTC-A Operations Orders
and the CSTC-A Campaign Plan.

In Afghanistan, we visited seven construction sites in Kabul, one construction site in
Kandahar, and two construction sites in Shindand from February 26, 2008, through
May 4, 2008 to validate real property existence.

We interviewed U.S. Government and contractor officials and reviewed contract
documentation from the AFCEE, including original contract awards, contract
modifications, standard operating procedures, and real property turnover records. We
reviewed the CSTC-A real property management system, ADIS, used to track real
property for the ASF. We reviewed contractor Web sites for planning documentation and
quality assurance reports.

We did not review the real property construction quality. We limited our audit to
verifying the existence, accountability, and transfer of the real property construction.

Use of Computer-Processed Data
We used the ADIS system and an AFCEE contractor Web site to generate reports from a
computer database. We found the computer-processed data to be reliable for the 10 real
property projects we looked at. Although, we did not perform a formal reliability
assessment of the computer processed data, we did not find errors that would preclude
use of the computer processed data to meet the audit objectives, or that would change the
conclusions in this report.

Use of Technical Assistance
We relied on technical assistance from a civil engineer with the Policy and Oversight
Office, Inspections and Evaluations Division of the DoD IG. The engineer evaluated the
construction projects during site visits.




                                             19
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD IG
have issued three reports discussing accountability for goods and services provided to the
Afghanistan Security Forces. Unrestricted GAO reports can be accessed over the Internet
at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-661, “Afghanistan Security: Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 2008

GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
Police Have Made Progress, but Future Plans Need to Be Better Defined,” June 2005

DoD IG
DoD IG Report No. D-2008-012, “Distribution of Funds and Validity of Obligations for
the Management of the Afghanistan Security Forces Fund-Phase I,” November 2007




                                           20
Appendix B. Administrative Fees
Administrative Fees
The Defense Security Cooperation Agency receives an administrative fee to reimburse
the agency for the work they perform in executing and managing ASF fund orders for
goods and services for Afghanistan. The contract administrative surcharge pays for
contract administration, quality assurance, and inspection, and AFCEE receives a fee for
real property construction management. Figure B-1 details the real property construction
fees. 1 About $0.92 for each dollar appropriated for real property construction, executed
through AFCEE, actually goes toward that purpose. The appropriateness of the Defense
Security Cooperation Agency fee is being addressed in a current DoD OIG project.2

    Figure B-1. Fees for ASF Fund Real Property Construction Executed by AFCEE




1
  The fees presented in Figure B-1 represent effective rates, calculated as the actual fees charged as a
percentage of total estimated costs.
2
  Department of Defense OIG Project No. D2007-D000FD-0198.000, Funds Appropriated for Afghanistan
and Iraq Processed Through the Foreign military Sales Trust Fund.


                                                   21
U.S. Central Command Comments




                 Click to add JPEG file




                                23
